      Department of Homeland Security





       Interim Report on FEMA Public Assistance Grant 

    Funds Awarded to California Department of Parks and 

                 Recreation, Sacramento, CA 





DS-12-05                                         March 2012

                                                                    Office of / 1I5ptCtrJl' General

                                                                    U.S. Dtpt.nmcot o( Homel' lId Sn:uri ty
                                                                    Washington. DC 20528




                                                         ~•• Homeland
                                                         ~e£ Security
                                           I.MR    8 2012


MEMORANDUM FOR:               Nancy Ward
                              ~~onal Administrator


FROM:
                     , ;,t"£'---I~
                  ~n.2PM~ear  F

                              Assis(ant Inspeclor Gen
                              Office of Emergency M     agement Oversight

SUBJECT:                      inlerim Report on FEMA Public Assisfance Grant Funds Awarded /0
                              California Department of Parks and Recreatioll, Sacramento, c.."'A
                              FEMA Disaster Number 1628-DR-CA
                              Audit Report Number DS-12-05

We are currently auditing $3. 1 million of the $8 million of Federal Emergency Management Agency
(FEMA) public assistance (PA) grant fund s awarded to the California Department of Parks and
Recreation (Department), Public Assistance Identification Number OOO-U8RA6-00, for disaster
recovery work related to winter storms of2005-2006. The purpose of this memorandum is to advise
you that $1.1 million of the total funds awarded was for projects that will not be performed and
should therefore be deobligated immediately so that these funds can be put to better use.

We are conducting this performance audit pursuant to the inspector General Act 0/1978, as
amended, and according to generally accepted government auditing standards. Our overall objective
is to detennine whether the Department accounted for and expended FEMA public assistance funds
applying the statutes, regulations. and FEMA policies and guidelines in effect at the time of the
disaster. At the conclusion of our audit, we plan to issue our complete audit report, including any
additional findings and recommendations.


            PROJECTS NOT PERFORMED - FEDERAL FUNDS NOT NEEDED

The Department has not performed work on 26 projects (Exhibit) for which FEMA awarded
$ 1, 108,425 (federal share $83 1,3 19). Any approved time extensions for performing this work lUlder
the FEMA FA program are no longer in effect. We included three of these projects in our original
audit scope. At our request, Department ofticials identified the other 23 projects as ones they would
not perform under the FEMA PA program. Therefore, FEMA should deobligate the funding tor
these projects and put those federal funds to better use. Department officials agreed with thi s
conclusion.
                                      RECOMMENDATION


We recommend that the Regional Administrator, FEMA Region IX, in coordination with the
California Emergency Management Agency (Cal EMA), deobligate $1,108,425 (federal share
$831,319) for the 26 projects not performed (Exhibit) and put those federal funds to better use.


              DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the interim results of this audit with Department officials during our audit, and
included their comments in this report, as appropriate. We also provided a written summary of our
finding and recommendation in advance to Cal EMA (grantee) on February 3, 2012, and to FEMA
on February 6, 2012. We discussed the finding and recommendation at an exit conference with
Cal EMA and Department officials on February 7, 2012. FEMA declined our invitation for an exit
conference. FEMA, Cal EMA, and Department officials concurred with our determination.

Within 90 days of the date of this memorandum, please provide our office with a written response
that includes your (1) agreement or disagreement, (2) corrective action plan, and (3) target
completion date for the recommendation. Also, please include responsible parties and any other
supporting documentation necessary to inform us about the current status of the recommendation.
Until your response is received and evaluated, the recommendation will be considered open and
unresolved.

Consistent with our responsibility under the Inspector General Act, we are providing copies of our
report to appropriate congressional committees with oversight and appropriation responsibility over
the Department of Homeland Security. We will post the report on our website for public
dissemination. Significant contributors to this report were Humberto Melara, Jack Lankford, and
Bill Stark.

Should you have questions concerning this report, please contact me at (202) 254-4100 or
Humberto Melara at (510) 637-1463.


cc:	   Administrator, FEMA
       Audit Liaison, FEMA (Job Code G-11-058)
       Audit Liaison, FEMA Region IX
       Audit Liaison, DHS




                                                  2

                                                     EXHIBIT

      Schedule of Projects Not Performed

    December 17, 2005, to February 7, 2012

California Department of Parks and Recreation

     FEMA Disaster Number 1628-DR-CA


             Project       Project    Unneeded
 Project
             Award        Incurred     Federal
 Number
             Amount         Cost      Funding
    455           $3,261       $0           $3,261
    459             1,690       0            1,690
    464           20,698        0           20,698
   2216           25,118        0           25,118
   2617           85,069        0           85,069
  2842*          256,878        0          256,878
   2850           52,045        0           52,045
   2851             4,028       0            4,028
  2853*             7,737       0            7,737
   2859             5,645       0            5,645
   2860             3,922       0            3,922
   2889           58,660        0           58,660
   3145             6,591       0            6,591
   3148             6,774       0            6,774
   3149           11,281        0           11,281
   3151           18,845        0           18,845
   3152           23,832        0           23,832
   3176           94,700        0           94,700
   3184          116,738        0          116,738
   3193             3,425       0            3,425
   3197           91,675        0           91,675
   3200             5,184       0            5,184
   3205             3,184       0            3,184
  3208*          140,720        0          140,720
  3485              2,374       0            2,374
  3503            58,351        0           58,351
  Totals $1,108,425            $0       $1,108,425
     * Projects in original audit scope.



                        3

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
